Case 20-3682, Document 35, 03/11/2021, 3054292, Pagel of 1

E.D.N.Y. - Bkyln
19-cv-5623
Brodie, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 11th day of March, two thousand twenty-one.
Present:
Robert D. Sack,
Richard C. Wesley,
Steven J. Menashi,
Circuit Judges.
Cush Ajelya Wright-El, AKA James Joseph Owens-El,
Petitioner-Appellant,
20-3682

v.
Mr. Thomas, et al.,
Respondents-Appellees.

Appellant, pro se, moves for in forma pauperis status. We construe his notice of appeal as seeking
a certificate of appealability. See Fed. R. App. P. 22(b)(2). Upon due consideration, it is hereby
ORDERED that the motions are DENIED and the appeal is DISMISSED because Appellant has
not shown that “jurists of reason would find it debatable whether the district court was correct in
its procedural ruling,” as to Appellant’s failure to exhaust his state court remedies before filing his
federal habeas corpus petition. Slack v. McDaniel, 529 U.S. 473, 478 (2000).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case l:19-cv-05623-MKB Documents Filed 03/30/20 Page 1 of 1 PagelD#: 168

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X

JAMES JOSEPH OWENS-EL as Next
Friend of CUSH A. WRIGHT-EL,
JUDGMENT
19-CV-5623 (MKB)

Petitioner,
v.
WARDEN THOMAS and
FIVE POINTS CORRECTIONAL FACILITY,
Respondents.
X

An Order of Honorable Margo K. Brodie, United States District Judge, having been filed
on March 27, 2020, finding the Amended Petition premature; dismissing the Petition without
prejudice; denying the issuance of a certificate of appealability, 28 U.S.C. § 2253(c)(2);
certifying pursuant to 28 U.S.C. § 1915(a) that any appeal would not be taken in good faith; and
denying in forma pauperis status for the purpose of any appeal, See Coppedge v. United States,
369 U.S. 438, 444^15 (1962); it is
ORDERED and ADJUDGED that the Amended Petition is dismissed without prejudice;
that no certificate of appealability shall issue, 28 U.S.C. § 2253(c)(2); that pursuant to 28 U.S.C.
§ 1915(a), any appeal would not be taken in good faith; and that in forma pauperis status is
denied for the purpose of any appeal, See Coppedge v. United States, 369 U.S. 438, 444^15
(1962).
Douglas C. Palmer
Clerk of Court

Dated: Brooklyn, New York
March 30, 2020
By:

/s/Jalitza Poveda
Deputy Clerk

Case l:19-cv-05623-MKB Document 7 Filed 03/27/20 Page 1 of 5 PagelD #: 163

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
JAMES JOSEPH OWENS-EL as Next Friend of
CUSH A. WRIGHT-EL,
Petitioner, i

NOT FOR PUBLICATION
ORDER
19-CV-5623 (MKB)

v.

WARDEN THOMAS and FIVE POINTS
CORRECTIONAL FACILITY,
Respondent.
MARGO K. BRODIE, United States District Judge:
Petitioner Cush A. Wright-El, proceeding pro se and currently incarcerated at Upstate
Correctional Facility,2 commenced the above-captioned action against Defendants Warden
Thomas and Five Points Correctional Facility for a writ of habeas corpus pursuant to 28 U.S.C.
§ 2254 on September 30, 2019. (Pet., Docket Entry No. 1.) By letter dated October 4, 2019, the
Clerk of Court issued a Notice of Deficient Filing, directing Petitioner to either pay the fivedollar filing fee or file a request to proceed in forma pauperis (“IFP”). (Notice of Deficient
Filing, Docket Entry Nos. 3-4.) On October 23, 2019, James Joseph Owens-El filed an
Amended Petition on behalf of Petitioner,3 (Am. Pet., Docket Entry No. 5), and a request to

l

The Clerk of Court is directed to amend the caption as set forth above.

2 See N.Y. State Dep’t of Corr. & Cmty. Supervision, Inmate Lookup,
http://nysdoccslookup.doccs.ny.gov/GCA00P00/WIQl/WINQ000 (last visited Mar. 27, 2020).
3 As discussed below, the Court finds the Amended Petition is premature and dismisses it
without prejudice. However, the Court further notes that while there are circumstances where an

Case l:19-cv-05623-MKB Document 7 Filed 03/27/20 Page 2 of 5 PagelD #: 164

proceed IFP, (IFP Mot., Docket Entry No. 6). The Court grants the request to proceed IFP solely
for the purpose of this Order. As further explained below, because the Amended Petition is
premature, the Court dismisses the Amended Petition without prejudice.4
I.

Background
On April 25, 2016, Petitioner was convicted after a jury trial in the Supreme Court of the

State of New York, Kings County of one count of attempted second-degree murder, two counts
of first-degree assault, one count of second-degree criminal possession of a weapon, and one

individual can file a petition on someone else’s behalf, see 28 U.S.C. § 2242 (providing that a
habeas corpus petition “shall be in writing signed and verified by the person for whose relief it is
intended or by someone acting in his behalf’), Owens-El has failed to give adequate reasons for
filing on behalf of Wright-El. When a petition is filed by a person other than the petitioner, that
“next friend” must demonstrate that he or she has standing to act on the petitioner’s behalf:
First, a “next friend” must provide an adequate explanation — such
as inaccessibility, mental incompetence, or other disability — why
the real party in interest cannot appear on his own behalf to
prosecute the action. Second, the “next friend” must be truly
dedicated to the best interests of the person on whose behalf he seeks
to litigate, and it has been further suggested that a “next friend” must
have some significant relationship with the real party in interest.
Ross v. Lantz, 408 F.3d 121, 123 (2d Cir. 2005) (quoting Whitmore v. Arkansas, 495 U.S. 149,
163-64 (1990)); see also Rivera v. Clinton Corr. Facility, 590 F. App’x 93, 94 (2d Cir. 2015)
(same). “The burden is on the ‘next friend’ clearly to establish the propriety of his status and
thereby justify the jurisdiction of the court.” Ross, 408 F.3d at 123 (quoting Whitmore, 459 U.S.
at 164). Owens-El has failed to demonstrate that Petitioner is unable to litigate his own case.
Accordingly, the Court finds that even if the Amended Petition were not premature, on the facts
currently before the Court, Owens-El has not met his burden to appear as a “next friend” and
therefore lacks standing to appear on behalf of Petitioner.
4 Pursuant to 28 U.S.C. § 2244(b)(1), “[a] claim presented in a second or successive
habeas corpus application under section 2254 that was presented in a prior application shall be
dismissed.” 28 U.S.C. § 2244(b)(1). In the event that Petitioner files another habeas corpus
application seeking relief under section 2254, the Amended Petition shall not be construed as
having presented a claim for purposes of section 2244(b)(1).

2

Case l:19-cv-05623-MKB Document 7 Filed 03/27/20 Page 3 of 5 PagelD #: 165

count of first-degree reckless endangerment. (Am. Pet. 1-2.)5 On May 25, 2016, Petitioner was
sentenced to twenty-five years of imprisonment. (Id. at 1.) On May 25, 2016, Petitioner filed a
notice of appeal, which Petitioner never perfected.6 (See Deck of Petitioner dated January 21,
2019 Tf 6, annexed to Am. Pet., Docket Entry No. 5; Deck of Assistant District Attorney Dmitriy
Povazhuk dated October 1, 2018 112, annexed to Am. Pet., Docket Entry No. 5.)
On July 7, 2018, Petitioner filed a motion to vacate the conviction under New York
Criminal Procedure Law § 440.10 (the “440 motion”) alleging, inter alia, juror misconduct; by
Decision and Order dated December 20, 2018 and entered on January 2, 2019, the 440 motion
was denied. (State Ct. Decision dated Dec. 20, 2018, annexed to Pet., Docket Entry No. 1.) On
March 20, 2019, the Appellate Division denied Petitioner’s request for leave to appeal the denial
of the 440 motion. People v. Wright-El, No. 2018-01348, slip op. (App. Div. Mar. 20, 2019).
II. Discussion
The Court finds that the Amended Petition is premature.
Section 2254 empowers federal courts to review petitions for habeas relief only from
persons who are “in custody pursuant to the judgment of a State court only on the ground that he
is in custody in violation of the Constitution or law or treaties of the United States.” 28 U.S.C.
§ 2254(a). Section 2254 further provides that a petition for habeas corpus shall not be granted
until the applicant “has exhausted the remedies available in the courts of the State.” Id.

5 Because the Amended Petition is not consecutively paginated, the Court refers to the
pages numbers assigned by the Electronic Case Filing (“ECF”) system.
6 Pursuant to the Practice Rules of the Appellate Division in New York State, an
appellant has six months from the date of the notice of appeal to perfect the appeal. 22 NYCRR
§ 1250.9.
3

Case l:19-cv-05623-MKB Document 7 Filed 03/27/20 Page 4 of 5 PagelD #: 166

§ 2254(b)(1)(A); see Picard v. Connor, 404 U.S. 270, 275 (1971); Daye v. Attorney Gen. ofN.Y.,
696 F.2d 186, 190-92 (2d Cir. 1982). Accordingly, in order to be eligible for habeas relief, a
petitioner, having been convicted and sentenced in state court, must then appeal his conviction or
sentence in the state court system before filing his habeas petition in federal court.
Owens-El does not provide information in the Amended Petition regarding the status of
Petitioner’s direct appeal;7 however, as noted above, the attached documents indicate that
Petitioner’s direct appeal has not been perfected and is still pending. If Petitioner’s direct appeal
of his judgment of conviction is still pending, the habeas petition is premature.8 See 28 U.S.C.

7 The Amended Petition alleges that Petitioner’s appeal “was never recorded due to
conspiracy by warden [and] [public defender],” and that the public defender “promised to
forward the supplemental briefs once the warden released them to her [and] then reneged on her
promise.” (Am. Pet. 2.) The Amended Petition further alleges that the grounds raised on appeal
are “50% accepted by the State” but the “supplemental grounds have been hijacked by Warden
Thomas [and] pub[lic] defender] Hutchison.” (Id.) These allegations are not sufficient to
excuse the exhaustion requirement.
8

The Petitioner is advised that, pursuant to the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), there is a one-year statute of limitations within which a person
in custody pursuant to a state court conviction may file a petition for a writ of habeas corpus. 28
U.S.C. § 2244(d)(1). The one-year period runs from the date on which the latest of four events
occurs:
A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of
the United States is removed, if the applicant was prevented from
filing by such state action;
(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence.
28 U.S.C. § 2244(d)(l)(A-D).
4

Case l:19-cv-05623-MKB Document 7 Filed 03/27/20 Page 5 of 5 PagelD #: 167

§ 2254; Rule 4 of the Rules Governing Section 2254 Cases in the United States District Courts
(directing the district court to dismiss a petition where “it plainly appears from the petition and
any attached exhibits that the petitioner is not entitled to relief in the district court”); Hanson v.
Moss, No. 10-CV-3199, 2010 WL 2990110, at *1 (E.D.N.Y. July 25, 2010) (“[SJince petitioner’s
direct appeal is pending, she has not exhausted her available state court remedies and the petition
is premature.”).
III. Conclusion
Accordingly, the Court finds that the Amended Petition is premature and dismisses it
without prejudice. A certificate of appealability shall not issue as Petitioner has not made a
substantial showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Court
certifies pursuant to 28 U.S.C. § 1915(a) that any appeal would not be taken in good faith and,
therefore, in forma pauperis is denied for the purpose of any appeal. See Coppedge v. United
States, 369 U.S. 438, 444^15 (1962).
The Clerk of Court is directed to mail a copy of this Order to Petitioner Cush A. WrightEl, No. 16-A-2113, Upstate Correctional Facility, 309 Bare Hill Road, P.O. Box 2000, Malone,
NY 12953, and to the address on the docket.
Dated: March 27, 2020
Brooklyn, New York
SO ORDERED:
s/ MKB
MARGO K. BRODIE
United States District Judge

5

Additional material
from this filing is
available in the
Clerk's Office.

